February 2007
Report No. 07-005


Information Technology Examination
Coverage of Financial Institutions’
Oversight of Technology Service
Providers




             AUDIT REPORT
                                                                                                  Report No. 07-005
                                                                                                     February 2007



                                      Information Technology Examination Coverage of Financial
                                      Institutions’ Oversight of Technology Service Providers
                                      Results of Audit
Background and                        The FDIC has provided guidance to examiners to assess financial institutions’
Purpose of Audit                      oversight of TSPs. In particular, the IT-RMP guidance requires examiners to
                                      consider the interagency guidelines in scoping examinations but does not detail
In the first 10 months of             examination procedures to assess compliance with the key controls over TSPs.
2006, over half of the 213            Two of the four IT-RMP tools could be enhanced to provide information and
information security breaches         examination procedures for assessing the risks associated with protecting the
reported by financial institutions    security and confidentiality of sensitive customer information when FDIC-
to the FDIC involved technology
                                      supervised institutions use TSPs. Specifically, the IT-RMP Officer’s
service providers (TSP). In
accordance with federal laws and      Questionnaire, completed by institution management, could request information
regulations, financial institutions   about the financial institution’s key controls over TSPs. Additionally, guidance in
must safeguard sensitive customer     the Snapshot Work Program could specifically address key controls related to due
information against unauthorized      diligence in the selection of TSPs, contract provisions, and ongoing monitoring of
disclosure when outsourcing           TSPs.
various information technology
(IT) operations to TSPs.              All 12 examinations in our sample included assessments of the financial
                                      institutions’ oversight of TSPs as required by the IT-RMP, and most provided at
Interagency guidelines contained      least some coverage of the key controls in the interagency guidelines. However,
in Part 364 of the FDIC Rules and
                                      documentation for 10 of the 12 examinations did not contain sufficient written
Regulations establish key controls
over TSPs, noting that each bank      support that examiners had fully assessed institutions’ compliance with the
shall (1) exercise due diligence in   interagency guidelines regarding oversight of TSP protection of sensitive customer
selecting TSPs, (2) have              information. The IT-RMP Snapshot Work Program provides examiners
contractual arrangements with         considerable flexibility in tailoring IT examination procedures to the institution
their TSPs that require appropriate   being examined and does not specifically require examiners to test or document
measures to safeguard customer        the extent of an institution’s oversight of TSPs.
information, and (3) provide
ongoing monitoring of TSPs to         The FDIC can achieve greater assurance that financial institutions are ensuring that
ensure they have satisfied their      TSPs safeguard customer information by enhancing IT-RMP guidance and IT
contractual obligations. To ensure
                                      examination documentation. Such assurance will help in protecting customers
that FDIC-supervised financial
institutions implement adequate       from identity theft and institutions from fraud and reputational and other risks
information security program          associated with unauthorized access to or use of customer information.
controls, the FDIC conducts
periodic onsite IT examinations       Recommendations and Management Response
through its Information
Technology-Risk Management            The report makes two recommendations that the FDIC: (1) revise IT-RMP
Program (IT-RMP).                     guidance to ensure that examiners adequately assess financial institution
                                      compliance with the interagency guidelines pertaining to the oversight of TSPs and
The objective of this audit was to    (2) reemphasize the need for examiners to clearly document decisions and
assess the Division of Supervision
                                      supporting logic for the approach used in assessing compliance with the
and Consumer Protection’s (1) IT
examination procedures for            interagency guidelines related to TSPs as well as support for examiner
addressing the security of            conclusions. FDIC management agreed with both recommendations, noting that it
sensitive customer information        is planning to evaluate the first year of performance under the IT-RMP. This
when FDIC-supervised                  evaluation will incorporate our recommendations, and the FDIC will issue
institutions use TSPs and             additional guidance where necessary. Additionally, the FDIC will reemphasize
(2) examiners’ implementation of      examination documentation requirements to examiners.
those procedures.
_______________________
To view the full report, go to
www.fdicig.gov/2007reports.asp
                           TABLE OF CONTENTS


BACKGROUND                                            1
 Statutory and Regulatory Guidance                    2
 Institution Guidance                                 3
 Examiner Guidance                                    3
 Reported Breaches of Security Related to Customer    5
 Information

RESULTS OF AUDIT                                      5

IT-RMP GUIDANCE ON FINANCIAL INSTITUTIONS’            6
CONTROLS OVER TSPs
  Officer’s Questionnaire                             6
  Snapshot Work Program                               7

EXAMINER IMPLEMENTATION OF IT-RMP GUIDANCE            9
ON FINANCIAL INSTITUTIONS’ CONTROLS OVER TSPs
 Documentation of Examiner Procedures                 9
 Due Diligence                                       10
 Contract Provisions                                 10
 Ongoing Monitoring                                  12

CONCLUSION                                           13

RECOMMENDATIONS                                      14

CORPORATION COMMENTS AND OIG EVALUATION              14

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY        15

APPENDIX II: SELECTED LAWS, REGULATIONS, AND         19
GUIDANCE RELATED TO TSP PROTECTION OF
CUSTOMER INFORMATION

APPENDIX III: ANALYSIS OF EXAMINER                   23
DOCUMENTATION OF INSTITUTION COMPLIANCE WITH
INTERAGENCY GUIDELINES IN RELATION TO THREE
KEY CONTROL AREAS

APPENDIX IV: SUMMARY ANALYSIS OF EXAMINER            25
DOCUMENTATION OF INSTITUTION COMPLIANCE WITH
INTERAGENCY GUIDELINES IN RELATION TO THREE
KEY CONTROL AREAS

APPENDIX V: CORPORATION COMMENTS                     26

APPENDIX VI: MANAGEMENT RESPONSE TO                  28
RECOMMENDATIONS
ACRONYMS

C.F.R.     Code of Federal Regulations
DSC        Division of Supervision and Consumer Protection
FACT       Fair and Accurate Credit Transactions
FDI        Federal Deposit Insurance
FDIC       Federal Deposit Insurance Corporation
FFIEC      Federal Financial Institutions Examination Council
FIL        Financial Institution Letter
GLBA       Gramm-Leach-Bliley Act
IT         Information Technology
IT-RMP     Information Technology-Risk Management Program
MERIT      Maximum Efficiency, Risk-Focused, Institution Targeted
OCC        Office of the Comptroller of the Currency
OIG        Office of Inspector General
OTS        Office of Thrift Supervision
RDM        Regional Directors Memorandum
ROE        Report of Examination
TSP        Technology Service Provider
U.S.C.     United States Code
Federal Deposit Insurance Corporation                                                             Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                              Office of Inspector General


DATE:                                     February 5, 2007

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Information Technology Examination Coverage
                                          of Financial Institutions’ Oversight of Technology
                                          Service Providers (Report No. 07-005)


This report presents the results of the Office of Inspector General’s (OIG) second audit in
a series of audits pertaining to the FDIC’s oversight of technology service providers
(TSP). 1 The overall purpose of these audits is to assess the FDIC’s examination coverage
of TSPs and related efforts to protect sensitive customer information. 2 Our prior audit
assessed the FDIC’s process for identifying and monitoring TSPs used by FDIC-
supervised institutions and for prioritizing examination coverage of TSPs. 3 For the
current audit, our objective was to assess the Division of Supervision and Consumer
Protection’s (DSC) (1) information technology (IT) examination procedures for
addressing the security of sensitive customer information 4 when FDIC-supervised
institutions use TSPs and (2) examiners’ implementation of those procedures.
Appendix I of this report details our objective, scope, and methodology.

BACKGROUND

In accordance with federal laws and regulations (see Appendix II for additional
information), financial institutions must safeguard sensitive customer information against
unauthorized disclosure or use. The FDIC is responsible for examining FDIC-supervised
financial institutions for adherence to these laws and regulations as part of its legislative
1
  According to Interagency Guidelines Establishing Information Security Standards (Appendix B to Part
364 of the FDIC Rules and Regulations), service provider “. . . means any person or entity that maintains,
processes, or otherwise is permitted access to customer information through its provision of services
directly to the bank.”
2
  Sensitive customer information is defined by Appendix B to Part 364 of the FDIC Rules and Regulations
as a customer’s Social Security number, personal identification number, password, or account number in
conjunction with a personal identifier such as the customer’s name, address, or telephone number. Such
information would also include any combination of components of a customer’s information such as a user
name and password that would allow someone to log onto or access another person’s account.
3
  OIG Report No. 06-015, FDIC’s Oversight of Technology Service Providers, issued in July 2006.
4
  Security of customer information differs from financial privacy in that security measures are designed to
safeguard against unauthorized access to or use of customer information, while financial privacy rules
address a financial institution’s ability to disclose data.
mandate to maintain stability and public confidence in the nation’s financial system.
Many financial institutions outsource various IT operations to TSPs. However, a
financial institution’s use of a TSP to provide needed products and services does not
diminish the responsibility of the institution’s board of directors and management to
ensure that these activities are conducted in a safe and sound manner and in compliance
with applicable laws and regulations. According to FDIC IT examination guidance, TSP
relationships should be subject to the same or greater risk management, security, privacy,
and other internal controls and policies that would be expected if the financial institution
were conducting the activities directly.

Statutory and Regulatory Guidance

The primary federal law governing the protection of sensitive customer information is the
Gramm-Leach-Bliley Act (GLBA), Public Law 106-102. GLBA, enacted in 1999,
requires financial institutions to protect the security and confidentiality of customer
information. Under GLBA, each federal banking agency is required to establish
appropriate standards for the financial institutions subject to their jurisdiction that would
serve to:

•   ensure the security and confidentiality of customer records;

•   protect against anticipated threats or hazards to the security or integrity of such
    records; and

•   protect against unauthorized access to or use of such records which would result in
    substantial harm or inconvenience to any customer.

To that end, in 2001 the federal banking agencies promulgated the Interagency
Guidelines Establishing Information Security Standards (Interagency Guidelines),
codified in the FDIC Rules and Regulations at 12 Code of Federal Regulations (C.F.R.)
Part 364, Appendix B. Pursuant to the Interagency Guidelines, each bank must
implement a customer information security program that includes administrative,
technical, and physical safeguards appropriate to the size and complexity of the bank and
the nature and scope of its activities. The security program must include a written plan
that identifies key risks and controls related to the protection of customer information.
Section III of the Interagency Guidelines notes that while
overseeing service provider arrangements, each financial                   Key Controls in the
institution shall:                                                        Customer Information
                                                                            Security Program
                                                                            Applicable to TSPs
•   exercise appropriate due diligence in selecting its TSPs;
                                                                           9 Due Diligence
•   require its service providers, by contract, to implement               9 Contract Provisions
    appropriate measures designed to meet the objectives of the            9 Ongoing Monitoring
    Interagency Guidelines; and                                         Source: 12 C.F.R. Part 364.




                                              2
•    where indicated by the bank’s risk assessment, monitor its TSPs to confirm that they
     have satisfied their obligations to implement appropriate security measures for
     customer information. As part of this monitoring, financial institutions should review
     audits, summaries of test results, or other equivalent evaluations of their TSPs.

Institution Guidance

The FDIC, in conjunction with the Federal Financial Institutions Examination Council
(FFIEC) 5 has issued various Financial Institution Letters (FIL) addressing the
outsourcing of technology services by financial institutions (see Appendix II).

Of particular note, the FDIC issued FIL-22-2001 6 in March 2001 to introduce the
requirements of the Interagency Guidelines to the financial institutions it supervises. The
FIL noted that the Interagency Guidelines describe the oversight role of an institution's
board of directors in the process for creating, implementing, and maintaining an
information security program for safeguarding customer information and its continuing
duty to evaluate and oversee the program’s overall status. Further, the FIL stated that the
Interagency Guidelines describe the elements of a comprehensive risk-management plan
to control risks to the security and confidentiality of customer information and identify
the factors an institution should consider in evaluating the adequacy of its policies and
procedures related to protecting customer information. The FIL states that institutions
should exercise appropriate management of outsourcing arrangements, including
confirming that service providers have implemented effective information security
programs to protect customer information.

Also, the FDIC issued FIL-68-2001 7 in August 2001 to introduce examination
procedures designed to help ensure institution compliance with customer safeguards in
the Interagency Guidelines and to ensure that the standards established in the Interagency
Guidelines are applied consistently. FIL-68-2001 provided extensive coverage of GLBA
requirements and included key questions related to measures taken by an institution to
oversee service providers. The procedures cover all three of the key controls related to
TSPs as identified by the Interagency Guidelines.

Examiner Guidance

DSC generally conducts IT examinations in conjunction with risk management
examinations every 12 or 18 months, depending on the asset size and condition of the
institution. In 2005, DSC updated its risk-focused IT examination procedures for FDIC-
supervised financial institutions. Specifically, DSC issued Regional Directors
Memorandum (RDM 2005-031), Information Technology-Risk Management Program
(IT-RMP), on August 15, 2005. 8 The previous process focused on broad-based
5
  In addition to the FDIC, the FFIEC includes the Federal Reserve Board, National Credit Union
Administration, Office of the Comptroller of the Currency (OCC), and Office of Thrift Supervision (OTS).
6
  Entitled, Security Standards for Customer Information.
7
  Entitled, 501(b) Examination Guidance.
8
  The IT-RMP replaced the former IT-Maximum Efficiency, Risk-Focused, Institution Targeted
(IT-MERIT) program and related work programs.


                                                   3
technology and control reviews, while the IT-RMP places considerable emphasis on
management, information security program content, and confirmations and assurances
obtained through audit or independent review. The IT-RMP integrates with other
examination activities by embedding the results of the IT examination within the risk
management Report of Examination (ROE), which documents the results of safety and
soundness examinations of FDIC-supervised financial institutions, regardless of
institution size, technical complexity, or prior examination rating. 9

Under the IT-RMP, a review of the Interagency Guidelines is mandatory for each
examination, including a review of the controls pertaining to TSPs. The IT-RMP
contains four tools to assist examiners in an examination.
                                                                 Key Tools of the IT-RMP
The two primary tools that examiners use to assess a
financial institution’s oversight of TSPs are the IT            9 Technology Profile Script
Examination Officer’s Questionnaire (Officer’s                  9 IT Summary Analysis
Questionnaire) and the IT Examination Snapshot Work             9 Officer’s Questionnaire
Program (Snapshot Work Program).                                9 Snapshot Work Program

                                                                   Source: FDIC IT-RMP Guidance.
•    Officer’s Questionnaire - This examiner risk-
     scoping tool is required to be completed by institution
     management and is used to collect key information
     about the institution’s IT environment prior to an IT examination. The questionnaire
     represents the financial institution’s self-assessment of its information security
     program and contains a series of questions, primarily in a “yes/no” format. The
     Officer’s Questionnaire is organized as follows:

              Part 1, Risk Assessment
              Part 2, Operations Security and Risk Management
              Part 3, Audit/Independent Review Program
              Part 4, Disaster Recovery and Business Continuity
              Part 5, Gramm-Leach-Bliley Act/FDIC Rules and Regulations-12
              CFR Part 364, Appendix B

    The assessment of an institution’s controls over TSPs is generally included in Part 2,
    Operations Security and Risk Management, under the section on vendor management.
    Part 5 of the Officer’s Questionnaire focuses on the institution’s compliance with the
    Interagency Guidelines and does not specifically include information pertaining to
    TSPs.

•    Snapshot Work Program - This examiner tool is used to guide examiner effort and
     document conclusions reached in the course of an IT examination. The Snapshot
     Work Program is tailored after the Officer’s Questionnaire and provides
     “quick reference guidance” to examiners. Part 2 of the Snapshot Work Program
     contains guidance pertaining to the need for comprehensive contracts when

9
 FIL-81-2005 entitled, Information Technology Risk Management Program (IT-RMP): New Information
Technology Examination Procedures, was issued August 18, 2005, notifying institutions of the new
IT-RMP.


                                                4
   institutions use TSPs. It is important to note that examiners have considerable
   discretion in supplementing the Snapshot Work Program with any other approved
   FDIC or FFIEC work programs.

Reported Breaches of Security Related to Customer Information

The importance of protecting sensitive customer information at TSPs is underscored by
the number of data security breaches reported by financial institutions to the FDIC in
2006. According to information obtained from the FDIC’s security incident report,
approximately 213 security breaches were reported at banks during the period January
2006 though October 2006, of which approximately 125 (59 percent) involved TSPs.
These breaches included TSPs providing services to institutions for Internet banking,
debit and credit cards, automated teller machines, and network operating systems.

RESULTS OF AUDIT

The FDIC has provided guidance to examiners for assessing financial institutions’
oversight of TSPs. While we concluded that the 2001 examination guidance contained
detailed procedures for assessing compliance with the Interagency Guidelines related to
TSPs, this guidance is not mandatory. IT-RMP guidance, which is mandatory, requires
examiners to consider the Interagency Guidelines in scoping examinations but does not
detail examination procedures for assessing compliance with the key controls over TSPs.
 Two of the four IT-RMP tools could be enhanced to provide information and
examination procedures for assessing the risks associated with protecting the security and
confidentiality of sensitive customer information when FDIC-supervised institutions use
TSPs. Specifically, the IT-RMP Officer’s Questionnaire, completed by institution
management, could request information about the financial institution’s key controls over
TSPs. Additionally, guidance in the Snapshot Work Program could specifically address
key controls in the Interagency Guidelines related to due diligence in the selection of
TSPs, contract provisions, and ongoing monitoring of TSPs (see IT-RMP Guidance on
Financial Institutions’ Controls Over TSPs).

All 12 examinations in our sample included assessments of the financial institutions’
oversight of TSPs as required by IT-RMP, and most provided at least some coverage of
the key controls in the interagency guidelines. However, documentation for 10 of the 12
examinations did not contain sufficient written support that examiners had fully assessed
institutions’ compliance with the Interagency Guidelines regarding oversight of TSP
protection of customer information. The IT-RMP Snapshot Work Program provides
examiners considerable flexibility in tailoring IT examination procedures to the
institution examined and does not specifically require examiners to test or document the
extent of an institution’s oversight of TSPs. As noted above, the IT-RMP guidance also
does not include detailed examination procedures to assess compliance with the
Interagency Guidelines related to TSPs (see Examiner Implementation of IT-RMP
Guidance on Financial Institutions’ Controls Over TSPs).




                                            5
The FDIC can achieve greater assurance that financial institutions are ensuring the
security and confidentiality of customer information when using TSPs by enhancing IT-
RMP guidance and IT examination documentation. Such assurance will help in
protecting customers from identity theft and institutions from fraud and reputational and
other risks associated with unauthorized access or use of customer information.

IT-RMP GUIDANCE ON FINANCIAL INSTITUTIONS’ CONTROLS OVER
TSPs

IT-RMP guidance could be enhanced to increase assurance that examiners are thoroughly
assessing how financial institutions ensure that their TSPs are safeguarding sensitive
customer information. Specifically, two primary examiner tools for assessing compliance
with the Interagency Guidelines related to TSPs, the Officer’s Questionnaire and
Snapshot Work Program, could further ensure that examiners assess the three key
controls of the Interagency Guidelines - due diligence, contract provisions, and ongoing
monitoring.

Officer’s Questionnaire

The Officer’s Questionnaire is an integral component of the IT-RMP and, when
completed, serves as the financial institution’s self-assessment of its information security
program. For examiners, the questionnaire serves as a risk analysis and scoping tool to
identify strengths and weaknesses in the institution’s information security program. The
5-part Officer’s Questionnaire contains 85 questions for completion by the financial
institution (see the Background section of this report). The two parts of the questionnaire
that pertain to TSPs are discussed below.

Part 2 of the Officer’s Questionnaire, Operations Security and Risk Management, asks
whether the institution has a vendor management program. The question is intended to
be answered with a “Yes” or “No” response and does not request information on the
vendor management program. As a result, the institution’s response may not be
particularly useful for purposes of using the Officer’s Questionnaire as a means to gain an
understanding of the institution’s risk management practices related to the protection of
sensitive customer information by TSPs. Although the Snapshot Work Program provides
more detailed examination guidance in assessing compliance with the Interagency
Guidelines related to TSPs, the Officer’s Questionnaire is a risk-scoping tool that is
completed earlier in the IT-RMP process and could be used more effectively to solicit
such information as the nature and extent of the institution’s use of TSPs to process
sensitive customer information, risk assessments related to the use of TSPs, and
significant changes in TSP relationships since the prior examination.

Part 5 of the Officer’s Questionnaire, Gramm-Leach-Bliley Act/FDIC Rules and
Regulations – 12 CFR Part 364, Appendix B, addresses compliance with the Interagency
Guidelines. The IT-RMP guidance for the Officer’s Questionnaire addresses whether
bank management has developed a written information security program meeting the
standards of the Interagency Guidelines. The Questionnaire requests information on


                                             6
those responsible for overseeing and implementing the security program, compliance
audits, and the completion of employee awareness training related to the Interagency
Guidelines. However, none of the five questions in Part 5 of the Officer’s Questionnaire
specifically address oversight of TSPs. Further, three of the five questions are intended
to be answered with only a “Yes” or “No” response. In our opinion, the questionnaire
could be improved by requesting information that describes the institution’s information
security program as it relates to TSPs and the TSP-related security controls identified in
the Interagency Guidelines, such as: the due diligence process used in the selection of
TSPs that have access to sensitive customer information, contract provisions that provide
for security programs at TSPs, and ongoing monitoring of the activities of service
providers with access to sensitive customer information. To facilitate completion of the
Questionnaire, the questions in Part 2 could be consolidated under Part 5, which
specifically relates to implementation of the Interagency Guidelines.

Snapshot Work Program

Examiners use the Snapshot Work Program both as a guide in performing the
examination and to document examiners’ findings and conclusions. The guidance in the
Snapshot Work Program provides examiners considerable flexibility in tailoring
examination procedures to the institution being examined. The Snapshot Work Program
guidance encourages the use of appropriate portions of other FDIC and FFIEC
examination guidance, as needed, to reach conclusions about an institution’s
effectiveness in managing IT risk. Although not specifically referenced, other guidance
would include FIL-68-2001, previously discussed, which provides detailed examination
procedures for assessing compliance with the Interagency Guidelines related to TSPs.
However, the Snapshot Work Program itself does not ensure that examiners assess the
key risks identified in the completed Officer’s Questionnaire and associated with the
oversight of TSPs. Specifically, the Snapshot Work Program could be supplemented
with additional procedures for examiners to review due diligence, contract provisions and
ongoing monitoring in relation to the customer information security activities involving
TSPs, as discussed below.

Similar to the Officer’s Questionnaire, Part 2 of the Snapshot Work Program, Operations
Security and Risk Management, asks whether the institution has a vendor management
program. Part 2 of the Snapshot Work Program states:

       Management should establish and maintain a formal vendor management program
       that defines the framework for controlling the risks associated with key vendors
       and service providers. For example, comprehensive contracts should be
       established that include service level agreement, audit expectations, and
       confidentiality/nondisclosure statements. In addition, the program should require
       service providers and vendors to maintain security programs that comply with
       requirements outlined within Part 364, Appendix B of the FDIC’s Rules and
       Regulations. In summary, the vendor management program should require
       security standards that meet or exceed the bank’s own standards. For additional
       information, refer to the FFIEC Handbooks and FILs regarding this topic.


                                            7
While the above guidance is notable in that it addresses the need for a robust vendor
management program, comprehensive contracts with TSPs, and TSP-maintained
customer information security programs, the guidance could be enhanced by more clearly
defining risk-based examination procedures for areas such as:

   •   institution vendor management policies and procedures related to customer
       information security, including risk assessment;
   •   consideration by the institution of TSP measures to protect customer information
       as part of due diligence in selecting TSPs;
   •   contracts with service providers incorporating the Interagency Guidelines;
   •   service provider reporting, including response to security compromises; and
   •   institution management review of TSP audits, test results, and other security-
       related evaluations and follow-up on corrective actions.

Part 5 of the Snapshot Work Program, Gramm-Leach-Bliley Act/FDIC Rules and
Regulations – 12 CFR Part 364, Appendix B, addressing an institution’s overall
compliance with the Interagency Guidelines includes the following:

       An assessment of Part 364, Appendix B is mandatory at every examination.
       Based on management responses and your assessment of the bank’s risk
       management practices, is management meeting Part 364, Appendix B
       requirements?

Part 5 also lists questions similar to those in Part 5 of the Officer’s Questionnaire. This
guidance is clear about the mandatory nature of coverage of the Interagency Guidelines
as part of every examination and the importance DSC places on customer information
security. However, Part 5 of the Snapshot Work Program does not specifically mention
TSPs and could be improved by including specific procedures for examiners to consider
in determining whether an institution is complying with the TSP provisions of the
Interagency Guidelines. Similar to our conclusion related to the Officer’s Questionnaire,
the guidance in the Snapshot Work Program could also be consolidated under Part 5 of
the program, which is specifically related to implementation of the Interagency
Guidelines. Consolidation of the procedures could help to ensure appropriate coverage of
the key controls in the Interagency Guidelines.




                                             8
EXAMINER IMPLEMENTATION OF IT-RMP GUIDANCE ON FINANCIAL
INSTITUTIONS’ CONTROLS OVER TSPs

All 12 examinations we reviewed included a review of the institutions’ compliance with
the Interagency Guidelines, and most provided at least some coverage of key controls.
However, documentation for 10 of 12 IT examinations did not contain sufficient written
support that examiners had fully assessed financial institutions’ compliance with the
Interagency Guidelines regarding the oversight of TSPs in the three key control areas of
due diligence, contract provisions, and ongoing monitoring. These key controls provide
for the protection of customer information entrusted by the institution to the TSP.
Assessments of these controls as part of an examination increase assurance that customer
information is used by the TSP as intended by the institution. We based our conclusions
on a review of how examiners assessed 17 TSP-specific steps that we identified in the
Interagency Guidelines and institution and examiner guidance related to the key control
areas in the Interagency Guidelines (see Appendixes III and IV for our analysis of the
specific steps under the three key control areas). Also, we used existing DSC guidelines
for examination documentation to assess examiners’ written support. In some cases,
where we were unable to determine the extent of the examiner’s assessment of financial
institution compliance with the Interagency Guidelines, DSC obtained additional
documentation from the financial institutions to facilitate our review.

Documentation of Examiner Procedures

In accordance with RDM 2001-039, Guidelines for Examination Workpapers and
Discretionary Use of Examination Documentation Modules, at a minimum, examiners
should summarize the documentation relied upon during their review and briefly detail
the procedures used and analysis conducted to support conclusions relative to significant
areas of review. This guidance is applicable to examination coverage of institution
oversight of TSPs. In addition, examination documentation should (1) demonstrate a
clear trail of decisions and supporting logic within a given area, (2) provide written
support for examination and verification procedures performed and conclusions reached,
and (3) support assertions of fact or opinion in the financial schedules and narrative
comments in the ROE. Furthermore, DSC’s Risk Management Manual of Examination
Policies, Section 1.1-Basic Examination Concepts and Guidelines, states that
examination findings should be documented through a combination of brief summaries,
bank source documents, ROE comments, and examination work papers that address both
management practices and financial institution condition.

We recognize that there is a need for flexibility in choosing examination procedures and
documenting support for examination procedures. For example, if the contract between
the financial institution and its service providers had been reviewed in a separate
examination of the TSP or a prior examination, and the term of a TSP contract extends
into the period of the next examination cycle, there may not be a need for the IT examiner
to review the contract again in the next IT examination. However, DSC should
emphasize that examiners must clearly document decisions and the supporting logic for
the approach used for assessing compliance with the Interagency Guidelines and support
for conclusions reached on key controls, as discussed below. This will aid in ensuring

                                            9
that risks are appropriately addressed in the current examination and in planning the
scope for future examinations.

Due Diligence

The Interagency Guidelines require that each financial institution exercises appropriate
due diligence in selecting its TSPs to help ensure that sensitive customer information is
safeguarded. For 8 of the 12 examinations, there was documentation of at least a limited
assessment of due diligence. For 3 of the 12 IT
examinations, we found sufficient documentation              Due Diligence Controls Assessed
that examiners had assessed the financial
institutions’ due diligence in selecting TSPs,           9 Determine the adequacy of the TSP’s
                                                         controls to safeguard the bank’s sensitive
particularly with regard to the protection of            customer information.
customer information. Five examinations included 9 Conduct background checks on key
limited documentation that the financial                 personnel.
                                                         9 Determine extent of TSP’s use of
institutions’ compliance had been assessed;              subcontractors, and conduct due diligence
therefore, we could not conclude whether the             on subcontractors.
examiners’ review confirmed that the institution
                                                         Source: OIG Analysis of FDIC and
had:                                                     FFIEC Guidance.

    • determined the adequacy of a TSP’s
      controls to safeguard the bank’s sensitive customer information;
    • conducted background checks on key personnel; and
    • determined the extent to which TSPs will use subcontractors, and if used, that the
      bank had conducted due diligence on the subcontractors.

The remaining four examinations did not include documentation that the institutions’
compliance with due diligence requirements had been assessed by the IT examiners.

Contract Provisions

The Interagency Guidelines mandate that each financial institution require its service
providers, by contract, to implement appropriate measures designed to:

     •   ensure the security and confidentiality of customer information,
     •   protect against any anticipated threats or hazards to the security of the
         information,
     •   protect against unauthorized access to or use of information that could result in
         substantial harm or inconvenience to any customer, and
     •   ensure the proper disposal of customer information.




                                                 10
To ensure that institutions have adequate controls over sensitive customer information at
TSPs, IT examiners should confirm that institutions have established controls with the
TSPs through appropriate contract provisions. However, for 10 of the 12 IT
examinations we reviewed, there was limited or
no documentation that examiners had confirmed
the institutions’ protection of sensitive customer                  Contract Controls Assessed

information at TSPs through all of the appropriate    9 Protection of the bank’s data from unauthorized
contract provisions identified in TSP-related         access at the TSP.
                                                      9 Incident response plan for unauthorized access and
guidance. We based this conclusion on our             notification to the bank of a breach.
review of examination documentation and               9 Adequate disposal of the bank’s sensitive customer
available TSP contracts, along with interviews of     information by the TSP.
                                                      9 Adherence to regulatory guidance and requirements
the IT examiners who had conducted the work.          for the protection of sensitive customer information,
                                                            including providing accurate information and timely
In reviewing the examiners’ documentation of the            access to a bank’s regulatory agency.
                                                            9 Specific or custom information security standards
12 IT examinations, we made the following                   required by the bank (i.e., encryption and use of
observations:                                               firewalls).
                                                            9 Notification to the bank of subcontractor
•   Evidence of review - Documentation for                  arrangements with the TSPs.
                                                            9 Ownership of the bank’s customer information,
    three of the IT examinations did not contain            including the timely return of information at
    any evidence of examiners’ reviews of TSP               termination to the bank.
                                                            9 Confidentiality of an institution’s sensitive customer
    contracts. Furthermore, the IT examiners                information.
    could not recall whether any specific contracts         9 Types of evaluations, reviews, audits, or other
    had been reviewed.                                      reports of the TSP’s controls to protect sensitive
                                                            customer information or the right of the bank to audit
                                                            the TSP.
•   Review of subcontractor arrangements -                  9 Determination on whether the institution’s Legal
    TSPs subcontract with other service providers           Counsel had reviewed the contract.
    on occasion to perform portions of the               Source: OIG Analysis of FDIC and FFIEC Guidance.
    services required by financial institutions. For
    nine of the IT examinations, there was limited or no documentation that examiners
    had ensured the financial institutions’ contracts included provisions requiring TSPs to
    notify the institutions of subcontractor arrangements with TSPs. Without
    this contract provision, a financial institution may not be informed of other service
    providers handling the institution’s customer information and, therefore, cannot
    adequately ensure the information is protected in accordance with the Interagency
    Guidelines.

•   Legal counsel review - For 10 examinations, we did not find support that the IT
    examiners had ensured that the financial institution’s legal counsel reviewed the
    contracts. According to the FFIEC's Outsourcing Technology Services Handbook,
    the contract is the single most important control in the outsourcing process, and
    institutions should engage legal counsel early in the process to help prepare and
    review the proposed contract.

Although all the financial institutions in our sample employed TSPs, only 4 of the 12 sets
of IT examination work papers we reviewed contained copies of TSP contracts. In total,



                                                 11
we reviewed nine contracts contained in the IT examination work papers and concluded
that:

     • seven of the contracts did not contain provisions requiring an incident response
       plan in the event of unauthorized access to sensitive customer information at the
       TSP and notification to the bank; 10
     • six of the contracts did not include provisions for the TSPs’ adequate disposal of
       the bank’s sensitive customer information; and
     • six of the contracts did not include provisions for evaluations, reviews, audits, or
       reports on the TSP’s controls to protect sensitive customer information or the
       right of the bank to audit the TSP.

We also obtained four contracts from three additional institutions through DSC. We
noted that all four of these contracts lacked key provisions such as:

     • an incident response plan addressing unauthorized access to the bank’s sensitive
       customer information at the TSP and notification to the bank,
     • adequate disposal of the bank’s sensitive customer information by the TSP, and
     • specific information security standards required by the institution.
These examples indicate that some financial institution contracts with TSPs could more
completely address the service provider’s responsibilities for the security and
confidentiality of customer information. Further, specific examination procedures could
aid examiners in the review of contract provisions for compliance with the Interagency
Guidelines.

Ongoing Monitoring
                                                                             Ongoing Monitoring Controls Assessed
Ongoing monitoring of TSPs entails understanding the                       9 Audit and regulatory reports of the TSP’s
scope and nature of the services sufficiently to identify and              general control environment, including
appropriately react when the services provided are not at                  information security practices, standards, and
                                                                           procedures for protecting the bank’s sensitive
the level indicated in the agreement, no longer                            customer information.
appropriately coordinate with the security controls at the                 9 Ensure that the TSP takes corrective action
institution, or no longer provide the risk mitigation desired.             to address findings included in the audit and
                                                                           regulatory reports of the TSP.
The Interagency Guidelines require banks to monitor their                  9 Conformance with specific or custom
service providers, where indicated by the bank’s risk                      information security standards required by
assessment, to confirm that service providers have satisfied               the bank and included in the contract.
                                                                           9 Subcontractors’ compliance with Part 364,
their obligations as required by the contract. As part of the              Appendix B security requirements.
bank’s monitoring, it should review audits, summaries of
test results, or other equivalent evaluations of its service               Source: OIG Analysis of FDIC and FFIEC
                                                                           Guidance.

10
  According to FIL-27-2005, Guidance on Response Programs for Unauthorized Access to Customer
Information and Customer Notice, when an incident of unauthorized access to sensitive customer
information involves information systems maintained by a bank’s TSP, it is the institution’s responsibility
to notify its customers and regulator. However, a bank may contract with its TSP to notify the institution’s
customers or regulator on its behalf.


                                                     12
providers. For 9 of the 12 IT examinations we reviewed, we found support that
examiners had ensured that financial institutions were obtaining independent, external
reviews of the TSPs. In these cases, the reviews were performed in accordance with the
American Institute of Certified Public Accountants Statement on Auditing Standards
No. 70 11 entitled, Reports on the Processing of Transactions by Service Organizations.
The reports of these reviews describe and, in some cases, document tests of the general
control environment and information security practices, standards, and procedures of the
TSPs. However, we determined that there was limited or no support that examiners had
assessed whether financial institutions ensured that TSPs took appropriate corrective
measures to address findings identified in audits, summaries of test results, or other
equivalent evaluations of TSPs. In the remaining three instances, there was limited or no
support in the examination documentation that examiners had ensured that institutions
were obtaining independent, external reviews of TSPs.

We also noted that there was limited or no support in documentation for 8 of the12 IT
examinations for the examiners’ assessment of whether subcontractors were being used
by TSPs for processing customer information, and if so, whether the subcontractors were
being monitored for compliance with the Interagency Guidelines. The potential use of
subcontractors to process customer information presents considerable risk to the security
and confidentiality of the information that should be covered through the implementation
of controls consistent with the Interagency Guidelines.

Ongoing monitoring of TSPs and their subcontractors by financial institutions helps to
ensure that the TSPs safeguard the institution’s sensitive customer information.
Accordingly, examiners should perform procedures to confirm whether financial
institutions ensure that TSPs and their subcontractors conform to contractual customer
information security requirements.

CONCLUSION

Safeguarding sensitive customer information is critical to ensuring that consumers are
protected from identity theft and institutions are protected from fraud and reputational
and other risks. IT-RMP guidance could be enhanced to more specifically address key
provisions of the Interagency Guidelines pertaining to due diligence in the selection of
TSPs, contract provisions covering TSP relationships, and ongoing monitoring of TSPs.
The IT-RMP guidance provides examiners considerable flexibility in tailoring
examination procedures. Much of the guidance for an IT examination is contained in
various FDIC and FFIEC work programs. Accordingly, the FDIC can achieve greater
assurance that financial institutions are adequately ensuring the security and
confidentiality of customer information when using TSPs by enhancing IT-RMP
guidance and IT examination documentation.


11
  Statement on Auditing Standards No. 70 defines the professional standards used by an auditor to assess
the internal controls of a service organization. Service organizations, such as data centers, insurance claims
processors, and credit processing companies, provide outsourcing services that affect the operation of the
contracting enterprise.


                                                     13
RECOMMENDATIONS

We recommend the Director, DSC:

   1. Revise IT-RMP guidance to ensure that examiners adequately assess financial
      institution compliance with the Interagency Guidelines provision pertaining to the
      oversight of TSPs by:

       •   Adding questions to the IT Examination Officer’s Questionnaire that request
           information on the (a) identification and risk assessment of all TSPs with
           access to sensitive customer information and (b) compliance with the control
           areas of due diligence, contract provisions, and ongoing monitoring.
           Consideration should be given to consolidation of the questions pertaining to
           the Interagency Guidelines under one part of the Officer’s Questionnaire.

       •   Amend the IT Snapshot Work Program to consolidate all guidance related to
           compliance with the Interagency Guidelines under one section and to include
           specific examination procedures to address the three TSP-related control areas
           of due diligence, contract provisions, and ongoing monitoring contained in the
           Interagency Guidelines. Consideration should be given to the TSP-specific
           steps identified in Appendixes III and IV of this report.

   2. Reemphasize the need for examiners to clearly document decisions and supporting
      logic for the approach used in assessing compliance with the Interagency
      Guidelines related to TSPs as well as support for examiner conclusions.

CORPORATION COMMENTS AND OIG EVALUATION

On January 29, 2007, the Director, DSC, provided a written response to a draft of this
report. DSC’s response is presented in its entirety as Appendix V to this report. DSC
agreed with both recommendations, noting that it is planning to evaluate the first year of
performance under the IT-RMP. This evaluation will incorporate our recommendations,
and DSC will issue additional guidance where necessary. Additionally, DSC will
reemphasize examination documentation requirements to examiners.

DSC’s actions are responsive to our recommendations. A summary of management’s
response to the recommendations is in Appendix VI. The recommendations are resolved
but will remain open until we have determined that agreed-to corrective actions have
been completed and are effective.




                                            14
                                                                                            APPENDIX I


                       OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of this audit was to assess DSC’s (1) IT examination procedures for
addressing the security of sensitive customer information when FDIC-supervised
institutions use TSPs and (2) examiners’ implementation of those procedures. We
conducted our audit in accordance with generally accepted government auditing
standards during the period April through November 2006.

Scope and Methodology

The audit focused on DSC’s examination assessment of FDIC-supervised institutions’
compliance with the Interagency Guidelines pertaining to the oversight of TSPs. To
accomplish the audit objective, we evaluated relevant supervisory procedures for
assessing TSP oversight consistent with RDM 2005-031, Information Technology-Risk
Management Program (IT-RMP). We also evaluated the IT-RMP guidance for
consistency with applicable federal laws, regulations, policies, and guidelines related to
the oversight of TSPs. Additionally, we considered other supplementary guidance such
as FFIEC handbooks, industry best practices, and guidance issued by other regulators.

We coordinated our audit work with a separate FDIC OIG audit of IT-RMP, and both
audits relied on the same sample of examinations. We selected a non-statistical 12 sample
of 12 examinations from a total of 292 examinations conducted during the period January
through March 2006, consisting of 4 examinations conducted in the FDIC’s New York
Region, 4 in the San Francisco Region, and 4 in the Kansas City Region.

We selected our sample from the New York, Kansas City, and San Francisco regions
based on the following considerations.

•    The New York Region had the largest dollar-value financial institutions in our sample
     population.
•    The Kansas City Region had the largest number of financial institutions in our sample
     population.
•    The San Francisco Region had the most widely dispersed financial institutions in our
     sample population.

We discussed our proposed sample with DSC management to explain our methodology
and to ensure that our sample would produce meaningful results. DSC provided
suggestions regarding which regional offices, IT composite ratings, and institution asset
sizes we should consider in selecting our sample.



12
   The results of a non-statistical sample cannot be projected to the intended population by standard
statistical methods.



                                                     15
                                                                            APPENDIX I

Further, we interviewed DSC staff who had responsibilities for establishing and
implementing the IT-RMP. We also did the following:

   •   Assessed policies and procedures developed and used by DSC for examining IT
       security risks when institutions use TSPs.
   •   Reviewed DSC’s criteria in IT-RMP guidance for categorizing IT security risks in
       financial institutions with TSPs.
   •   Conducted interviews with IT examination specialists and IT examiners.
   •   Reviewed applicable laws and regulations and FDIC policies, procedures, and
       directives.
   •   Reviewed FFIEC guidance, including Outsourcing Technology Services (June
       2004), Supervision of Technology Service Providers (March 2003), Information
       Security (December 2002 and July 2006 revision), Business Continuity Planning
       (March 2003), and Audit (August 2003), which are 5 of 12 booklets that, in total,
       comprise the FFIEC Information Technology Handbook.

Internal Controls

We identified, gained an understanding of, and evaluated selected internal controls over
the establishment and implementation of supervisory procedures that addressed the
FDIC-supervised institutions' management of IT security risks. We reviewed the FDIC’s
(1) policies and procedures related to the oversight of TSPs and the protection of
sensitive customer information and (2) applicable policies and procedures in the FDIC
Rules and Regulations, Regional Directors Memoranda, FILs, and FFIEC IT examination
and supervision guidance. We also interviewed DSC individuals involved in IT
examinations. This report discusses internal control concerns, identified during our audit,
that relate to IT-RMP guidance.

Reliance on Computer-Based Data

We obtained certain data from DSC’s information system to identify IT examinations
conducted subsequent to the August 15, 2005 implementation of the IT-RMP and data
security breaches reported for the period January through October 2006. We did not
assess the reliability of the computer-based data because these data were not significant
to our findings, conclusions, or recommendations.

Government Performance and Results Act

The Government Performance and Results Act of 1993 directs federal agencies to
develop a strategic plan and annual performance plans to help improve federal program
effectiveness and service delivery. We reviewed the FDIC’s Strategic Plan for 2005-
2010 and the FDIC 2006 Annual Performance Plan. We determined that the FDIC did
not have a strategic goal or objective specifically related to IT examinations. However,
the means and strategies the FDIC uses to achieve a strategic goal that FDIC-supervised
institutions are safe and sound includes IT examinations in general, as stated in the FDIC
2006 Annual Performance Plan:


                                            16
                                                                               APPENDIX I

       The FDIC also continues to focus on the risks posed by technology. Both onsite
       risk management and information technology examinations cover technology-
       related activities to determine how each FDIC-supervised depository institution
       manages risk in that area. The FDIC uses a monitoring system to proactively
       identify and assess indicators of technology risks that may impact FDIC-
       supervised institutions. The FDIC will also augment its general training
       curriculum for examiners to include more training on technology issues and the
       Information Technology Examination Course, which teaches examiners how to
       better integrate technology risk management, will be revised as a result of the
       IT-RMP.

We did not assess IT-RMP training as part of this audit. Rather, we provided coverage of
IT-RMP training in a separate audit assignment that was ongoing at the completion of our
fieldwork (for details, see the section entitled, Prior Audit Coverage).

Fraud and Illegal Acts

We did not develop specific audit procedures to detect fraud and illegal acts because they
were not considered material to the audit objectives. However, throughout the audit, we
were alert to the possibility for fraud and illegal acts, and none came to our attention.

Laws and Regulations

In conducting the audit, we considered the following laws and regulations, as well as
additional laws and regulations identified in Appendix II.

•    GLBA provides for the protection of nonpublic personal information. Each
     financial institution has an obligation to respect the privacy of its customers and to
     protect the security and confidentiality of those customers’ nonpublic personal
     information. Each financial institution must establish administrative, technical, and
     physical safeguards to ensure the confidentiality of customer records and
     information; to protect against any anticipated threats or hazards to the security or
     integrity of such records; and to protect against unauthorized access to or use of
     such records or information which could result in substantial harm or inconvenience
     to any customer.

•    Fair and Accurate Credit Transactions (FACT) Act. This Act amends the Fair
     Credit Reporting Act by adding provisions covering identity theft, consumers’
     access to credit information, enhanced consumer report accuracy, and financial
     literacy. The statutes prescribe financial institutions’ responsibilities for protecting
     consumer information and sharing it with other entities.

•    Federal Deposit Insurance (FDI) Act Section 10 - Provisions Related to
     Examination Authority. The FDI Act requires the FDIC to perform periodic "full
     scope" examinations of FDIC-supervised institutions. IT examinations are included
     as part of a “full scope" examination.


                                             17
                                                                             APPENDIX I


•    FDIC Rules and Regulations, Part 364, Appendix B - Interagency Guidelines
     Establishing Information Security Standards. These standards require financial
     institutions to conduct appropriate due diligence in selecting service providers;
     require service providers, by contract, to implement appropriate measures to protect
     customer information; and monitor service providers.

Prior Audit Coverage

Audit Report No. 06-015, FDIC’s Oversight of Technology Service Providers, issued
July 20, 2006. The objective was to assess the FDIC’s examination coverage of TSPs
and related efforts to protect sensitive customer information. The report made six
recommendations for the FDIC to: (1) better identify and monitor TSPs with access to
sensitive customer information and (2) improve the process the FDIC uses (in
conjunction with the other FFIEC agencies) for assessing the risks posed by, and
prioritizing for examination, those TSPs with access to sensitive customer information.
DSC’s response and proposed actions were sufficient to resolve each recommendation.

Audit Report No. 07-002, The Division of Supervision and Consumer Protection’s
Information Technology-Risk Management Program, issued January 10, 2007. The
objective was to determine whether the FDIC had established and implemented adequate
procedures for addressing IT security risks at FDIC-supervised institutions that offer
electronic banking products and services. The report made seven recommendations to
enhance the tools and guidance under the IT-RMP methodology and the IT training
programs. FDIC management generally agreed with our recommendations and will
review the tools, guidance, and training programs as part of an evaluation of the first year
of performance under the IT-RMP program and will issue revised guidance or make
enhancements as deemed necessary.




                                             18
                                                                                           APPENDIX II


           SELECTED LAWS, REGULATIONS, AND GUIDANCE
       RELATED TO TSP PROTECTION OF CUSTOMER INFORMATION


Laws                                       Provisions
15 United States Code (U.S.C.) 6801        GLBA provides for the protection of nonpublic personal information by
Gramm-Leach-Bliley Act (GLBA)              establishing: (a) privacy obligation policy - it is the policy of the
                                           Congress that each financial institution has an affirmative and continuing
                                           obligation to respect the privacy of its customers and to protect the
                                           security and confidentiality of those customers’ nonpublic personal
                                           information; and (b) financial institutions’ safeguards. In furtherance of
                                           the policy in subsection (a) of this section, each agency or authority
                                           described in section 6805(a) of this title shall establish appropriate
                                           standards for financial institutions subject to their jurisdiction relating to
                                           administrative, technical, and physical safeguards: (1) to ensure the
                                           security and confidentiality of customer records and information; (2) to
                                           protect against any anticipated threats or hazards to the security or
                                           integrity of such records; and (3) to protect against unauthorized access
                                           to or use of such records or information which could result in substantial
                                           harm or inconvenience to any customer. As mandated by this law,
                                           interagency examination guidelines and procedures were developed to
                                           address standards for developing and implementing administrative,
                                           technical, and physical safeguards to protect the security, confidentiality,
                                           and integrity of customer information.
Regulations
12 C.F.R. Part 332, Privacy of Consumer    (a) Purpose. Part 332 governs the treatment of nonpublic personal
Financial Information                      information about consumers by the financial institutions listed in
                                           paragraph (b) of this section. This part:
                                              (1) Requires a financial institution to provide notice to customers
                                           about its privacy policies and practices.
                                              (2) Describes the conditions under which a financial institution may
                                           disclose nonpublic personal information about consumers to nonaffiliated
                                           third parties.
                                              (3) Provides a method for consumers to prevent a financial institution
                                           from disclosing that information to most nonaffiliated third parties by
                                           “opting out” of that disclosure, subject to the exceptions in §§ 332.13,
                                           332.14, and 332.15.
                                           (b) Scope. (1) Part 332 applies only to nonpublic personal information
                                           about individuals who obtain financial products or services primarily for
                                           personal, family, or household purposes. This part does not apply to
                                           information about companies or about individuals who obtain financial
                                           products or services for business, commercial, or agricultural purposes.
                                           This part applies to the United States offices or entities for which the
                                           FDIC has primary supervisory authority.
12 C.F.R. Part 364, Standards for Safety    (a) General standards. The Interagency Guidelines Establishing
and Soundness, Appendix B, Interagency     Security Standards prescribed pursuant to section 39 of the FDI Act (12
Guidelines Establishing Information        U.S.C. 1831p--1), as set forth in Appendix A to this part, apply to all
Security Standards                         insured state nonmember banks and to state-licensed insured branches of
                                           foreign banks that are subject to the provisions of section 39 of the FDI
                                           Act.
                                            (b) Interagency Guidelines Establishing Information Security
                                           Standards. These guidelines, prescribed pursuant to section 39 of the
                                           FDI Act (12 U.S.C. 1831p--1) and sections 501 and 505(b) of GLBA (15
                                           U.S.C. 6801, 6805(b)), and with respect to the proper disposal of
                                           consumer information requirements pursuant to section 628 of the Fair


                                                    19
                                                                                      APPENDIX II

                                        Credit Reporting Act (15 U.S.C. 1681w), as set forth in Appendix B to
                                        this part, apply to all insured state nonmember banks, insured state-
                                        licensed branches of foreign banks, and any subsidiaries of such entities
                                        (except brokers, dealers, persons providing insurance, investment
                                        companies, and investment advisers).
Interagency Guidance
FIL-81-2000, FFIEC Guidance on          Through the FFIEC, the regulators issued this guidance on key
Managing Risks Associated With          management issues when outsourcing technology. These issues include
Outsourcing Technology Services         risk assessment, service provider selection, contract terms, and oversight
November 2000                           of outsourcing arrangements. The guidance is intended to assist financial
                                        institutions that are increasingly relying on outside firms for technology-
                                        related products and services to support an array of banking functions.
                                        Institutions of all sizes are using these products and services, as
                                        technology grows more complex and dynamic, creating a greater impetus
                                        to outsource.
FIL-22-2001, Security Standards For     The purpose of this FIL was to identify, establish, approve, and issue
Customer Information                    joint guidelines establishing standards for safeguarding customer
March 2001                              information as required by GLBA. The guidelines provide expectations
                                        for creating, implementing, and maintaining an information security
                                        program and the oversight and continuing duty of the institution’s board
                                        of directors to identify and assess the risks that may threaten customer
                                        information. In addition, the FIL requires that the institution develop a
                                        written plan containing policies and procedures to manage and control
                                        risk; implement and test the plan; and adjust the plan on a continuing
                                        basis to account for changes in technology, sensitivity of customer
                                        information; and internal or external threats to information security.
FIL-50-2001, Bank Technology Bulletin   Contained in this FIL are documents that were provided to FDIC-
on Outsourcing                          supervised institutions, providing practical information to community
June 2001                               banks on how to select service providers, draft contract terms, and
                                        oversee multiple service providers when outsourcing for technology
                                        services and products.
FIL-68-2001, 501(b) Examination         This FIL provides joint examination procedures to evaluate sensitive
Guidance                                customer information in accordance with GLBA 501(b), which identifies
August 2001                             the standards to ensure the security and confidentiality of customer
                                        information; protect against any anticipated threats or hazards to the
                                        security or integrity of such information; and protect against
                                        unauthorized access to or use of customer information that could result in
                                        substantial harm or inconvenience to any customer.
FIL-89-2004, FFIEC Information          The FFIEC has issued booklets with guidance on evaluating management
Technology Examination Handbook         and outsourcing technology services. The FIL states that “outsourcing of
July 2004                               an activity does not relieve management and the board of directors of
                                        their responsibility to ensure the institution’s data are processed in a
                                        secure environment and to maintain data integrity.”
FIL-81-2005, Information Technology     The FIL announced the FDIC’s implementation of the new IT-RMP for
Risk Management Program (IT-RMP)        conducting IT examinations of FDIC-supervised financial institutions.
Examination Procedures,                 IT-RMP examination procedures apply to all FDIC-supervised banks,
August 2005                             regardless of size, technical complexity, or prior examination rating. The
                                        FIL also advised that the former IT-MERIT procedures and related work
                                        programs have been rescinded.




                                                20
                                                                                       APPENDIX II


FFIEC IT Examination Handbook,           Provides guidance and examination procedures to assist examiners and
Outsourcing Technology Services,         bankers in evaluating a financial institution’s risk management processes
June 2004                                to establish, manage, and monitor IT outsourcing relationships.
FFIEC IT Examination Handbook,           This booklet governs the supervision of TSPs and briefly summarizes the
Supervision of Technology Service        FFIEC member agencies’ (agencies) expectations of financial institutions
Providers,                               in the oversight and management of their TSP relationships. This
March 2003                               booklet outlines the agencies’ risk-based supervision approach, the
                                         supervisory process, and the examination ratings used for TSPs. In
                                         addition, this booklet discusses two special IT-related programs
                                         administered by the agencies: the Multi-Regional Data Processing
                                         Servicer Program, geared towards examining large TSPs and the Shared
                                         Application Software Review Program aimed at reviewing mission-
                                         critical software packages.
FFIEC IT Examination Handbook,           This booklet provides guidance to examiners and organizations on
Information Security                     assessing the level of security risks to the organization and evaluating the
July 2006                                adequacy of the organization’s risk management.
FFIEC IT Handbook, Audit,                This booklet replaces and rescinds Chapter 8 of the 1996 FFIEC
August 2003                              Information Systems Examination Handbook. It is used by agency
                                         examiners as a foundation from which they can assess the quality and
                                         effectiveness of an institution’s IT audit program. It describes the roles
                                         and responsibilities of the board of directors, management, and internal
                                         or external auditors; identifies effective practices for IT audit programs;
                                         and details examination objectives and procedures. Agency examiners
                                         will use the examination procedures in Appendix A to assess the
                                         adequacy of IT audit programs at both financial institutions and TSPs.
                                         The examination guidance and procedures in this booklet focus on IT
                                         audit and supplement other, more general, internal and external audit
                                         guidance provided by the agencies.
Fair and Accurate Credit Transactions    The OCC, FDIC, Federal Reserve, and OTS adopted a final rule to
(FACT) Act Implementation                implement section 216 of the FACT Act by amending the Interagency
                                         Guidelines Establishing Information Security Standards. The final rule
                                         generally requires each financial institution to develop, implement, and
                                         maintain, as part of its existing information security program, appropriate
                                         measures to properly dispose of consumer information derived from
                                         consumer reports.
DSC - Regional Directives
DSC Internal Control Field Territory –   This represents the work program for RDM 2005-031, Information
Module 3b: Information Technology        Technology Risk Management Program. This work program should be
Examinations (August 15, 2005)           used for examinations starting after August 15, 2005.
RDM 2005-031 – Information               The IT-RMP represents a new approach for conducting IT examinations
Technology Risk Management Program       at all FDIC-supervised financial institutions, regardless of size or
(IT-RMP)                                 complexity. Using the new IT-RMP procedures, examiner focus shifts
                                         from historic-based technology and control reviews to assessing
                                         management and IT risk management practices as communicated
                                         through a financial institution’s formal information security program.
RDM 2004-014 – Information               The IT General Work Program, issued through this RDM, was revised to
Technology General Work Program          include additional guidance to examiners for a) Appendix B, Part 364, of
Revision                                 the FDIC Rules and Regulations; b) imaging technology; and c) wireless
                                         technology.




                                                 21
                                                                                    APPENDIX II


RDM 2004-002 – Report Treatment of      To ensure consistency in reporting financial institutions’ compliance
Compliance with the Interagency         with the Interagency Guidelines, all safety and soundness and separate-
Guidelines Establishing Standards for   cover IT ROEs should include a comment regarding the subject
Safeguarding Customer Information       institution’s compliance with the guidelines - 12 C.F.R. Part 364,
                                        Appendix B. In the event of serious noncompliance, examiners should
                                        document that the financial institution fails to meet the standards
                                        prescribed under this section of the Interagency Guidelines Establishing
                                        Standards for Safeguarding Customer Information. Examiners should
                                        not include comments to the effect that the bank “is in violation of the
                                        Guidelines” or is being “cited for a violation of the Guidelines.”
RDM 2001-039 – Guidelines for           Examination findings should be documented using a combination of brief
Examination Work Papers and             summaries, bank source documents, report comments, and other
Discretionary Use of Examination        examination work papers that address both management practices and
Documentation Modules                   condition.
DSC Examination Manual, Section 1.1,    Examination documentation should demonstrate a clear trail of decisions
Basic Examination Concepts and          and supporting logic within a given area. Documentation should provide
Guidelines                              written support for examination and verification procedures performed
                                        and conclusions reached and support the assertions of fact or opinion in
                                        the financial schedules and narrative comments in the ROE.




                                                22
                                                                                                                                              APPENDIX III
                         ANALYSIS OF EXAMINER DOCUMENTATION OF INSTITUTION COMPLIANCE WITH
                           INTERAGENCY GUIDELINES IN RELATION TO THREE KEY CONTROL AREAS

Three Key Control Areas Reviewed                         Bank 1 Bank 2   Bank 3   Bank 4   Bank 5   Bank 6   Bank 7   Bank 8   Bank 9   Bank 10   Bank 11   Bank 12
Due Diligence
1. Determine the adequacy of the TSP’s controls to
                                                          N       N        Y        N        Y        N        N        N        N        N         Y         N
safeguard the bank’s sensitive customer information.
2. Conduct background checks on key personnel.            N       N        Y        N        Y        N        N        N        N        N         Y         N
3. Determine the extent of the TSP’s use of
subcontractors, and conduct due diligence on              N       N        Y        N        Y        N        N        N        N        N         Y         N
subcontractors.
Contract Provisions
4. Protection of the bank’s data from unauthorized
                                                          Y       N        Y        N        Y        N        N        N        N        N         Y         N
access at the TSP.
5. Incident response plan for unauthorized access and
                                                          N       N        Y        N        Y        N        N        N        N        N         Y         N
notification to the bank of breach.
6. Adequate disposal of the bank’s sensitive customer
                                                          N       N        Y        N        Y        N        N        N        N        N         Y         N
information by the TSP.
7. Adherence to regulatory guidance and
requirements for the protection of sensitive customer
                                                          Y       N        Y        N        Y        N        N        N        N        N         Y         N
information, including providing accurate information
and timely access to a bank’s regulatory agency.
8. Specific or custom information security standards
required by the bank (i.e., 128-bit encryption, use of    N       N        Y        N        Y        N        N        N        N        N         Y         N
firewalls).
9. Notification to the bank of subcontractor
                                                          N       N        Y        N        Y        N        N        N        N        N         Y         N
arrangements with the TSPs.
10. Ownership of the bank’s customer information,
including the timely return of information at contract    N       N        Y        N        Y        N        N        N        N        N         Y         N
termination to the bank.
11. Confidentiality of an institution’s sensitive
                                                          N       N        Y        N        Y        Y        N        N        N        N         Y         N
customer information.
12. Types of evaluations, reviews, audits, or other
reports of the TSP’s controls to protect sensitive
                                                          N       N        Y        N        Y        N        N        N        N        N         N         N
customer information or the right of the bank to audit
the TSP.
13. Determine whether the institution’s Legal
                                                          N       N        Y        N        Y        N        N        N        N        N         N         N
Counsel had reviewed the contract.
Legend: Y = Sufficient documentation.
          N = Limited or no documentation.



                                                                                  23
                                                                                                                                           APPENDIX III




                                                     Bank     Bank     Bank     Bank     Bank     Bank     Bank     Bank     Bank     Bank     Bank     Bank
Three Key Control Areas Reviewed
                                                      1        2        3        4        5        6        7        8        9        10       11       12
Ongoing Monitoring
14. Audit and regulatory reports on the TSP’s
general control environment, including information
                                                       Y       N      Y       N         Y         Y       Y         Y        Y         Y         N         Y
security practices, standards, and procedures for
protecting the bank’s sensitive customer information.
15. Ensure that the TSP takes corrective action to
address findings included in the audit and regulatory  N       N      Y       N         Y         N       N         Y        N         Y         N         N
reports on the TSP.
16. Conformance with specific or custom
information security standards required by the bank    Y       N      Y       N         Y         N       N         Y        N         Y         N         N
and included in the contract.
17. Subcontractors’ compliance with Part 364,
                                                       N       N      Y       N         Y         N       N         Y        N         Y         N         N
Appendix B, security requirements.
  Source: OIG analysis of 12 IT examinations sampled. We used FDIC RDM 2001-039 as the basis for making our determinations with regard to the sufficiency of
  documentation.




                                                                                24
                                                                                 APPENDIX IV
                  SUMMARY ANALYSIS OF EXAMINER
           DOCUMENTATION OF INSTITUTION COMPLIANCE WITH
            INTERAGENCY GUIDELINES IN RELATION TO THREE
                        KEY CONTROL AREAS
                                                               Sufficient     Limited or No
            Three Key Control Areas Reviewed                 Documentation   Documentation
                                                                 Number of Examinations
 Due Diligence
 1. Determine the adequacy of the TSP’s controls to safeguard            3             9
   the bank’s sensitive customer information.
 2. Conduct background checks on key personnel.                          3             9
 3. Determine the extent of the TSP’s use of subcontractors,
                                                                         3             9
   and conduct due diligence on subcontractors.
 Contract Provisions
 4. Protection of the bank’s data from unauthorized access at
                                                                         4             8
   the TSP.
 5. Incident response plan for unauthorized access and
                                                                         3             9
   notification to the bank of breach.
 6. Adequate disposal of the bank’s sensitive customer
                                                                         3             9
   information by the TSP.
 7. Adherence to regulatory guidance and requirements for the
   protection of sensitive customer information, including
                                                                         4             8
   providing accurate information and timely access to a
   bank’s regulatory agency.
 8. Specific or custom information security standards required
                                                                         3             9
   by the bank (i.e., 128-bit encryption, use of firewalls).
 9. Notification to the bank of subcontractor arrangements
                                                                         3             9
   with the TSPs.
10. Ownership of the bank’s customer information, including
   the timely return of information at contract termination to           3             9
   the bank.
11. Confidentiality of an institution’s sensitive customer
                                                                         4             8
   information.
12. Types of evaluations, reviews, audits, or other reports of
   the TSP’s controls to protect sensitive customer information          2            10
   or the right of the bank to audit the TSP.
13. Determine whether the institution’s Legal Counsel had
                                                                         2            10
   reviewed the contract.
 Ongoing Monitoring
14. Audit and regulatory reports on the TSP’s general control
   environment, including information security practices,
                                                                         9             3
   standards, and procedures for protecting the bank’s
   sensitive customer information.
15. Ensure that the TSP takes corrective action to address
   findings included in the audit and regulatory reports on the          4             8
   TSP.
16. Conformance with specific or custom information security
                                                                         5             7
   standards required by the bank and included in the contract.
17. Subcontractors’ compliance with Part 364, Appendix B,
                                                                         4             8
   security requirements.
 Source: OIG analysis of 12 IT examinations sampled. We used FDIC RDM 2001-039 as the basis for
 making our determinations with regard to the sufficiency of documentation.




                                                 25
                       APPENDIX V



CORPORATION COMMENTS
     APPENDIX V




27
                                                                                                                                               APPENDIX VI


                                           MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and the status of the recommendations as of the date of report
issuance.
                                                                                                                                                  Open
                                                                                                                                         a
 Rec.                                                                                  Expected              Monetary        Resolved:             or
Number               Corrective Action: Taken or Planned/Status                     Completion Date          Benefits        Yes or No           Closedb
              DSC is planning an evaluation of the first year of
      1       performance under the IT-RMP program. DSC will                        September 30, 2007          N/A               Yes             Open
              incorporate the recommendations into its evaluation and
              issue additional guidance where necessary.
              DSC will re-emphasize examination documentation
      2       requirements.                                                          March 30, 2007             N/A               Yes             Open

a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                   as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                               28
